No. 20-7189

IN THE

Supreme Court of the United States
>>>>
BERNARD THOMAS,
Petitioner,
v.

UNITED STATES

OF

AMERICA,
Respondent.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Second Circuit

REPLY TO OPPOSITION

PETER J. TOMAO, ESQ.
Counsel for Petitioner
600 Old Country Road, Suite 328
Garden City, New York 11530
516-877-7015
ptomao@tomaolaw.com

June 7, 2021

No.20-7189
IN THE SUPREME COURT OF THE UNITED STATES
___________
BERNARD THOMAS, PETITIONER
v.
UNITED STATES OF AMERICA
___________

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
___________
REPLY BRIEF FOR THE PETITIONER
___________
This reply addresses the new issues raised by the government,
namely that the petition violates the Sup. Ct. Rule 10 as well as the
“two court rule” which it does not, and responds to other arguments by
the government.
Petitioner asks the Court to resolve the conflict among the circuits
regarding whether a sentencing judge may impose a supervised release
condition requiring a psychosexual evaluation following a conviction
which did not involve a sexual offense and where the only prior sexual
1

offense was remote in time, in this case more than 37 years. The
Petition specifically did NOT ask whether a psychosexual evaluation
could be imposed in a case in which the offense of conviction did not
relate to sexual misconduct (Pet. for Cert. at 1).
Petitioner does not ask the Court to review an error based on
erroneous factual findings or the misapplication of a properly
stated rule of law, as the government argues (Br. in Opp. at 10).
Rather petitioner asks the Court to consider whether Second Circuit
precedent conflicts with
courts

of

appeals

on

the
the

decisions
same

of other

important

United States

matter, namely the

imposition of psychosexual evaluations based on remote offenses in
compliance with Sup. Ct. Rule 10.
Nor does this petition involve a “fact-bound decision” as the
government repeatedly states (Br. in Opp. at 10, 13). The facts here are
straight forth and undisputed – petitioner was sentenced on offense of
conviction that did not relate to sexual misconduct, petitioner’s single
act of sexual misconduct occurred more than 37 years ago, petitioner
had a lengthy history of non-sexual criminal conduct which resulted in
his incarceration for approximately half of the time since his sexual
2

offense, and at one point New York State Department of Corrections
and Community Supervision ordered but choose not to enforce a
requirement that petitioner undergo “sex offender treatment” 1.
The two court rule, which the government invokes (Br. in Opp. at
10 citing Kyles v. Whitley, 514 U.S. 419, 456-57 (1995) (Scalia, J.,
dissenting)) is inapplicable here. This is not a case in which the court of
appeals and district court reviewed the same issue and arrived at the
same result. In the instant case, the district court applied Second
Circuit precedent to the undisputed facts and the circuit judges did the
same thing. As the petition points out in doing so, the Second Circuit
continued a rule which conflicts with other courts of appeal.
Notably, the Second Circuit acknowledged that its precedent
conflicted with that of other courts of appeals (A 6). The government
concedes that petitioner identified three cases of other circuit courts of
appeal which conflict with the decision of Second Circuit in this case but
attempts to distinguish each of them (Br. in Opp. at 14).

Contrary to the government’s suggestion, petitioner took no steps to
“avoid” treatment. There is no dispute that petitioner was not admitted
because there was "too little time remaining on parole to engage in
treatment." (PSR ¶¶ 43, 71, Br. in Opp. at 5).

1

3

While there are differences in the fact patterns, those differences
are immaterial. In each case, the court of appeals reversed the
imposition of conditions based on remote convictions for sex offenses.
For example, the government argues that United States v. Dugan, 684
F.3d 1030 (2012) is inapplicable because there is nothing in the record
to show that the defendant “avoided” a prior requirement for sexoffender treatment (Br. in Opp. at 15). However, as noted above,
petitioner in this case did not “avoid” treatment. The state authorities
chose NOT to enforce the requirement after having petitioner
incarcerated for more than a decade.
The government likewise distinguishes the other cases which the
petitioner cited based on differences among the individual defendants,
their criminal histories and the conditions imposed (Br. in Opp. at 16).
However, these are differences without distinctions. In the cases, which
petitioner cited, the courts of appeals rejected conditions which had
been applied based on temporally remote convictions – a rule which the
Second Circuit declined to apply in this case, placing it in conflict with
its sister circuits.

4

CONCLUSION
To resolve the conflict among the circuits, the instant
petition for a writ of certiorari should be granted.
Dated: Garden City, New York
June 3, 2021
Respectfully Submitted,

Peter J. Tomao, Esq.

CJA Counsel to the Petitioner
Bernard Thomas
600 Old Country Road, Suite 328
Garden City, NY 11530
(516) 877-7015

5

